      71766                  Federal Register / Vol. 69, No. 237 / Friday, December 10, 2004 / Proposed Rules

      VII. Statutory and Executive Order                      state to use voluntary consensus                       5246, Cohen Building, 330
      Reviews                                                 standards (VCS), EPA has no authority                  Independence Avenue, SW.,
         Under Executive Order 12866 (58 FR                   to disapprove a SIP submission for                     Washington, DC 20201.
      51735, October 4, 1993), this proposed                  failure to use VCS. It would thus be                      We do not accept comments by
      action is not a ‘‘significant regulatory                inconsistent with applicable law for                   facsimile (FAX) transmission. In
                                                              EPA, when it reviews a SIP submission,                 commenting, please refer to file code
      action’’ and therefore is not subject to
                                                              to use VCS in place of a SIP submission                OIG–91–N. Comments received timely
      review by the Office of Management and
                                                              that otherwise satisfies the provisions of             will be available for public inspection as
      Budget. For this reason, this action is
                                                              the Act. Thus, the requirements of                     they are received, generally beginning
      also not subject to Executive Order
                                                              section 12(d) of the National                          approximately three weeks after
      13211, ‘‘Actions Concerning Regulations
                                                              Technology Transfer and Advancement                    publication of a document, in Room
      That Significantly Affect Energy Supply,
                                                              Act of 1995 (15 U.S.C. 272 note) do not                5541 of the Office of Inspector General
      Distribution, or Use’’ (66 FR 28355, May
                                                              apply. This proposed rule does not                     at 330 Independence Avenue, SW.,
      22, 2001). This proposed action merely
                                                              impose an information collection                       Washington, DC, on Monday through
      proposes to approve state law as
                                                              burden under the provisions of the                     Friday of each week from 8 a.m. to 4:30
      meeting Federal requirements and
                                                              Paperwork Reduction Act of 1995 (44                    p.m.
      imposes no additional requirements
                                                              U.S.C. 3501 et seq.).                                  FOR FURTHER INFORMATION CONTACT: Joel
      beyond those imposed by state law.
      Accordingly, the Administrator certifies                                                                       Schaer, (202) 619–0089, OIG
                                                              List of Subjects in 40 CFR Part 52                     Regulations Officer.
      that this proposed rule will not have a
                                                                Environmental protection, Air                        SUPPLEMENTARY INFORMATION:
      significant economic impact on a
                                                              pollution control, Intergovernmental
      substantial number of small entities                                                                           I. Background
                                                              relations, Ozone, Reporting and
      under the Regulatory Flexibility Act (5
                                                              recordkeeping requirements, Volatile                   A. The OIG Safe Harbor Provisions
      U.S.C. 601 et seq.). Because this rule
                                                              organic compounds.
      proposes to approve pre-existing                                                                                 Section 1128B(b) of the Social
      requirements under state law and does                        Authority: 42 U.S.C. 7401—7671q.                  Security Act (the Act) (42 U.S.C. 1320a–
      not impose any additional enforceable                     Dated: November 30, 2004.                            7b(b)) provides criminal penalties for
      duty beyond that required by state law,                 George Pavlou,                                         individuals or entities that knowingly
      it does not contain any unfunded                        Acting Regional Administrator, Region 2.               and willfully offer, pay, solicit or
      mandate or significantly or uniquely                    [FR Doc. 04–27170 Filed 12–9–04; 8:45 am]
                                                                                                                     receive remuneration in order to induce
      affect small governments, as described                                                                         or reward business reimbursable under
                                                              BILLING CODE 6560–50–P
      in the Unfunded Mandates Reform Act                                                                            the Federal health care programs. The
      of 1995 (Pub. L. 104–4).                                                                                       offense is classified as a felony and is
         This proposed rule also does not have                                                                       punishable by fines of up to $25,000
      tribal implications because it will not                 DEPARTMENT OF HEALTH AND                               and imprisonment for up to 5 years. The
      have a substantial direct effect on one or              HUMAN SERVICES                                         OIG may also impose civil money
      more Indian tribes, on the relationship                 Office of Inspector General                            penalties, in accordance with section
      between the Federal Government and                                                                             1128A(a)(7) of the Act (42 U.S.C. 1320a–
      Indian tribes, or on the distribution of                42 CFR Part 1001                                       7a(a)(7)), or exclusion from the Federal
      power and responsibilities between the                                                                         health care programs, in accordance
      Federal Government and Indian tribes,                   Solicitation of New Safe Harbors and                   with section 1128(b)(7) of the Act (42
      as specified by Executive Order 13175                   Special Fraud Alerts                                   U.S.C. 1320a–7(b)(7)).
      (65 FR 67249, November 9, 2000). This                                                                            Since the statute on its face is so
      action also does not have Federalism                    AGENCY:  Office of Inspector General                   broad, concern has been expressed for
      implications because it does not have                   (OIG), HHS.                                            many years that some relatively
      substantial direct effects on the states,               ACTION: Notice of intent to develop                    innocuous commercial arrangements
      on the relationship between the national                regulations.                                           may be subject to criminal prosecution
      government and the states, or on the                                                                           or administrative sanction. In response
                                                              SUMMARY: In accordance with section
      distribution of power and                                                                                      to the above concern, the Medicare and
                                                              205 of the Health Insurance Portability                Medicaid Patient and Program
      responsibilities among the various
                                                              and Accountability Act (HIPAA) of                      Protection Act of 1987, section 14 of
      levels of government, as specified in
                                                              1996, this annual notice solicits                      Public Law 100–93, specifically
      Executive Order 13132 (64 FR 43255,
                                                              proposals and recommendations for                      required the development and
      August 10, 1999). This action merely
                                                              developing new and modifying existing                  promulgation of regulations, the so-
      proposes to approve a state rule
                                                              safe harbor provisions under the Federal               called ‘‘safe harbor’’ provisions,
      implementing a Federal standard, and
                                                              and State health care programs’ anti-                  specifying various payment and
      does not alter the relationship or the
                                                              kickback statute (section 1128B(b) of the              business practices which, although
      distribution of power and
                                                              Social Security Act), as well as                       potentially capable of inducing referrals
      responsibilities established in the Act.
                                                              developing new OIG Special Fraud                       of business reimbursable under the
      This proposed rule also is not subject to
                                                              Alerts.                                                Federal health care programs, would not
      Executive Order 13045 ‘‘Protection of
      Children from Environmental Health                      DATES: To assure consideration, public                 be treated as criminal offenses under the
      Risks and Safety Risks’’ (62 FR 19885,                  comments must be delivered to the                      anti-kickback statute and would not
      April 23, 1997), because it is not                      address provided below by no later than                serve as a basis for administrative
      economically significant.                               5 p.m. on February 8, 2005.                            sanctions. The OIG safe harbor
         In reviewing SIP submissions, EPA’s                  ADDRESSES: Please mail or deliver your                 provisions have been developed ‘‘to
      role is to approve state choices,                       written comments to the following                      limit the reach of the statute somewhat
      provided that they meet the criteria of                 address: Office of Inspector General,                  by permitting certain non-abusive
      the Act. In this context, in the absence                Department of Health and Human                         arrangements, while encouraging
      of a prior existing requirement for the                 Services, Attention: OIG–91–N, Room                    beneficial and innocuous arrangements’’


VerDate jul<14>2003   13:50 Dec 09, 2004   Jkt 205001   PO 00000    Frm 00031   Fmt 4702   Sfmt 4702   E:\FR\FM\10DEP1.SGM   10DEP1
                             Federal Register / Vol. 69, No. 237 / Friday, December 10, 2004 / Proposed Rules                                          71767

      (56 FR 35952, July 29, 1991). Health                    OIG last published a Federal Register                 and frequency of the conduct that
      care providers and others may                           solicitation notice for developing new                would be identified in the Special Fraud
      voluntarily seek to comply with these                   safe harbors and Special Fraud Alerts on              Alert.
      provisions so that they have the                        December 12, 2003 (68 FR 69366). As                     A detailed explanation of
      assurance that their business practices                 required under section 205, a status                  justifications for, or empirical data
      will not be subject to any enforcement                  report of the public comments received                supporting, a suggestion for a safe
      action under the anti-kickback statute or               in response to that notice is set forth in            harbor or Special Fraud Alert would be
      related administrative authorities.                     Appendix G to the OIG’s Semiannual                    helpful and should, if possible, be
         To date, OIG has developed and                       Report covering the period April 1, 2004              included in any response to this
      codified in 42 CFR 1001.952 a total of                  through September, 30, 2004.1 The OIG                 solicitation.
      22 final safe harbors that describe                     is not seeking additional public                        Dated: November 24, 2004.
      practices that are sheltered from                       comment on the proposals listed in                    Daniel R. Levinson,
      liability.                                              Appendix G at this time. Rather, this
                                                                                                                    Acting Inspector General.
      B. OIG Special Fraud Alerts                             notice seeks additional
                                                              recommendations regarding the                         [FR Doc. 04–27117 Filed 12–9–04; 8:45 am]
        The OIG has also periodically issued                  development of proposed or modified                   BILLING CODE 4150–04–P
      Special Fraud Alerts to give continuing                 safe harbor regulations and new Special
      guidance to health care providers with                  Fraud Alerts beyond those summarized
      respect to practices OIG finds                          in Appendix G to the OIG Semiannual                   DEPARTMENT OF HOMELAND
      potentially fraudulent or abusive. The                  Report referenced above.                              SECURITY
      Special Fraud Alerts encourage industry
      compliance by giving providers                          Criteria for Modifying and Establishing               Transportation Security Administration
      guidance that can be applied to their                   Safe Harbor Provisions
      own practices. The OIG Special Fraud                      In accordance with section 205 of                   49 CFR Part 1507
      Alerts are intended for extensive                       HIPAA, we will consider a number of                   [Docket No. TSA–2004–19845]
      distribution directly to the health care                factors in reviewing proposals for new
      provider community, as well as to those                                                                       RIN 1652–AA34
                                                              or modified safe harbor provisions, such
      charged with administering the Federal                  as the extent to which the proposals                  Privacy Act of 1974: Implementation of
      health care programs.                                   would affect an increase or decrease
        In developing these Special Fraud                                                                           Exemptions
                                                              in—
      Alerts, OIG has relied on a number of                     • Access to health care services;                   AGENCY: Transportation Security
      sources and has consulted directly with                   • The quality of services;                          Administration (TSA), DHS.
      experts in the subject field, including                   • Patient freedom of choice among                   ACTION: Notice of proposed rulemaking
      those within OIG, other agencies of the                 health care providers;                                (NPRM).
      Department, other Federal and State                       • Competition among health care
      agencies, and those in the health care                  providers;                                            SUMMARY: TSA proposes to exempt
      industry. To date, OIG has issued 12                      • The cost to Federal health care                   Transportation Security Intelligence
      individual Special Fraud Alerts.                        programs;                                             Service (TSIS) Operations Files (DHS/
      C. Section 205 of Public Law 104–191                      • The potential overutilization of the              TSA 011) from several provisions of the
                                                              health care services; and                             Privacy Act; to add 5 U.S.C. 552a(k)(1)
         Section 205 of Public Law 104–191                      • The ability of health care facilities             as an authority to exempt the Personnel
      requires the Department to develop and                  to provide services in medically                      Background Investigation File System
      publish an annual notice in the Federal                 underserved areas or to medically                     (DHS/TSA 004) from the provisions
      Register formally soliciting proposals                  underserved populations.                              previously claimed for that system; and
      for modifying existing safe harbors to                    In addition, we will also take into                 to add 5 U.S.C. 552a(j)(2) as an authority
      the anti-kickback statute and for                       consideration other factors, including,               to exempt the Transportation Security
      developing new safe harbors and                         for example, the existence (or                        Enforcement Record System (DHS/TSA
      Special Fraud Alerts.                                   nonexistence) of any potential financial              001) and the Internal Investigation
         In developing safe harbors for a                     benefit to health care professionals or               Record System (DHS/TSA 005) from the
      criminal statute, OIG is required to                    providers that may take into account                  provisions previously claimed for those
      engage in a thorough review of the range                their decisions whether to (1) order a                two systems, to now include subsection
      of factual circumstances that may fall                  health care item or service, or (2)                   (e)(3). Public comment is invited.
      within the proposed safe harbor subject                 arrange for a referral of health care items           DATES: Submit comments by January 10,
      area so as to uncover potential                         or services to a particular practitioner or
      opportunities for fraud and abuse. Only                                                                       2005.
                                                              provider.                                             ADDRESSES: You must identify the TSA
      then can OIG determine, in consultation
      with the Department of Justice, whether                 Criteria for Developing Special Fraud                 docket number when you submit
      it can effectively develop regulatory                   Alerts                                                comments to this rulemaking, using any
      limitations and controls that will permit                 In determining whether to issue                     one of the following methods:
      beneficial and innocuous arrangements                   additional Special Fraud Alerts, we will                 Comments Filed Electronically: You
      within a subject area while, at the same                also consider whether, and to what                    may submit comments through the
      time, protecting the Federal health care                extent, the practices that would be                   docket Web site at http://dms.dot.gov.
      programs and their beneficiaries from                   identified in a new Special Fraud Alert               Please be aware that anyone is able to
      abusive practices.                                      may result in any of the consequences                 search the electronic form of all
                                                              set forth above, as well as the volume                comments received into any of our
      II. Solicitation of Additional New                                                                            dockets by the name of the individual
      Recommendations and Proposals                                                                                 submitting the comment (or signing the
                                                                1 The OIG Semiannual Report can be accessed
         In accordance with the requirements                  through the OIG Web site at http://oig.hhs.gov/       comment, if submitted on behalf of an
      of section 205 of Public Law 104–191,                   publications/semiannual.html.                         association, business, labor union, etc.).


VerDate jul<14>2003   13:50 Dec 09, 2004   Jkt 205001   PO 00000   Frm 00032   Fmt 4702   Sfmt 4702   E:\FR\FM\10DEP1.SGM   10DEP1
